.OE r 1325.0
(01.93)

United States Government
                                                                                       Department of

memorandum
          DATE:        March 23, 2006                                 Audit Report Number: OAS-L-06-09
REPLY TO
 ATTN OF:              IG-32 (A060R040)

 SUBJECT:             Audit of"The Department of Energy's Management of the Northeast
                      Oil Reserve"                                                    Home Heating

           TO,        Deputy Assistant Secrctary for Petroleum Reserves


                     INTRODUCTION AND OBJECTIVE

                     The Energy Act of 2000 authorized the Secretary of Energy
                                                                                  to create a Northeast
                     Home Heating Oil Reserve (Reserve). The Reserve was established
                     "emergency buffer" to supplement commercial                           as an
                                                                     supplies should a severe supply
                     disruption occur in the heavily heating oil-dependent northeast
                                                                                     United States. The
                     Reserve consists of 2 million barrels of emergency home heating
                                                                                       oil, enough to
                    provide Northeast consumers adequate supplies for approximately
                                                                                         10 days or the
                    approximate time required for ships to carry heating oil from
                                                                                   the Gulf of Mexico to
                    the New   York Harbor.

                     The Department of Energy (Department) entered into contracts
                                                                                     with Amerada Hess
                    Corporation (Amerada Hess), Morgan Stanley Capital
                                                                           Group Inc. (Morgan Stanley),
                    and Motiva Enterprises LLC (Motiva) to store the 2 million
                                                                                 barrel Reserve at private
                    facilities. The contracts extend from October 2002 through September    2007 and are
                   valued at $14.5 million. In recognition of the need to continuously
                                                                                         monitor Reserve
                   inventories, the Department entered into an agreement with
                                                                                the Defense Energy
                   Support Center (DESC) to provide assurance services
                                                                          for the Reserve. Under the
                   agreement, DESC ensures that the heating oil inventory
                                                                            meets both the established
                   quantity and quality standards by requiring quality
                                                                       representatives to complete
                   monthly reviews on Reserve inventory.

                   The objective of our review was to determine whether
                                                                        the Department's contractors
                   are accurately reporting the Reserve inventories.

                  CONCLUSIONS AND OBSERVATIONS

                   The Department's contractors are accurately reporting Reserve
                                                                                    inventories and the
                  Department implemented an effective system of internal controls
                                                                                       to ensure that
                  adequate inventory quantities and quality are maintained
                                                                            at
                  addition, the Department maintained a culture that promptlyeach location. In
                                                                                 remedied past audit
                  findings and had taken swift action to increase accountability
                  result, we concluded that the current control environment       in reporting. As a
                                                                            provides reasonable


                                                         1
     assurance that the Reserve contains the amount and quality of heating oil
                                                                               mandated
     by the Energy Act of 2000.

      The Department's internal control structure for the Reserve included adequate
      independent monthly and annual reviews. In January 2006, we
                                                                       accompanied the
     DESC quality representatives as they manually gauged the tanks and calculated
     inventory levels. We found the DESC review process and subsequent
                                                                              certification
     report to be a valuable control for the Department. In addition,
                                                                      Serna and Company,
     P.C. (Serna) performs an independent compliance review annually
                                                                          for the
     Department. Serna's procedures include: interviewing terminal managers
                                                                                  to
    determine their procedures for receiving, storing and circulating
                                                                       the Department's
    inventory; observing the physical measurement of inventory;
                                                                   recalculating inventory
    volumes; and examining oil analysis for compliance with
                                                               quality commitments. The
    Office of Inspector General concluded that this work was adequate.

    Finally, the Department took timely action to make improvements
                                                                         to the internal
    control structure. During the planning phase of the audit, we identified
                                                                               minor
    discrepancies in the methodologies used by contractors for preparing
                                                                            monthly
   inventory certification forms. Prior to initiating the audit, we
                                                                    discussed our concerns
   with Department management and suggested improvements
                                                                  to increase contractor
   accountability. The Department promptly revised the inventory
                                                                      certification form to
   address our concerns, thereby increasing accountability.

  SCOPE AND METHODOLOGY

   The audit was performed from November 2005 through March
                                                                2006, at the
   Morgan Stanley trading floor in Purchase, New York; the Amerada
                                                                     Hess
   terminal in Woodbridge, New Jersey; the Magellan terminal in
                                                                New Haven,
  Connecticut; the Motiva terminal in Providence, Rhode Island;
                                                                and the Motiva
  terminal in New Haven, Connecticut. The audit scope included
                                                                 activities
  related to the management of the Reserve since 2000.

  We evaluated internal controls through assessments of independent
                                                                        reviews,
  discussions with Department and contractor personnel, use of
                                                                  an internal control
  questionnaire, and tours of Reserve sites. The questionnaire was
                                                                     designed to provide
  an overview of the control environment at each contractor
                                                             facility. For example, the
  questionnaire examined the physical safeguards at the facilities,
                                                                    procedural
 requirements, inventory turn over, and inventory control.
                                                            A thorough analysis of the
 completed questionnaires was followed by a tour of each Reserve
                                                                      contractor's
 facility.

 The audit was performed in accordance with generally accepted
                                                                  Government
 auditing standards for performance audits and included tests
                                                              of internal controls
 and compliance with laws and regulations to the extent
                                                        necessary to satisfy the
audit objective. Accordingly, we evaluated the Department's
                                                              implementation of
the Government PerformanceandResults Act of 1993 and
                                                           determined that
performance measures related to the Reserve had been established.
                                                                      The
Department of Energy Annual PerformancePlanforFY 2004
                                                               contained
performance measures requiring the Department to
                                                    maintain a 2 million barrel


                                       2
  Reserve with the ability to drawdown within 12 days of a Presidential decision.
  The Department's FY 2005 performance report noted that the program goal of
  establishing a 2 million barrel Reserve in the Northeast had been met. Because
  our review was limited, it would not necessarily have disclosed all internal
  control deficiencies that may have existed at the time of our audit. Also, since
 we did not rely upon computer generated data to accomplish our audit
                                                                          objective,
 therefore we did not conduct an assessment of the reliability of computer
 processed data.

 The Deputy Assistant Secretary for Petroleum Reserves waived the exit'
 conference. Because no formal recommendations are being made in this letter
 report, a formal response is not required.




                                         redr. i G. Pieper, Director
                                        Energy, Science and Environmental
                                         Audits Division
                                        Office of Inspector General
cc:   Chief of Staff
      Team Leader, Audit Liaison Team, CF-1.2
      Audit Liaison, FE-3




                                    3
